No._____________

In The
Supreme Court of the United States
RAYMOND ALAN GRIFFIN,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE
I, Shelly N. Gannon, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That on the 6th day of November,
2020, I filed a copy of the Petition of Writ of Certiorari and Motion for Leave to
Proceed In Forma Pauperis with the United States Supreme Court via UPS Ground
Transportation. I further certify that I served a copy of said Petition via UPS
Ground Transportation addressed to the following:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530-0001
Jennifer P. May-Parker
Office Of The United States Attorney
150 Fayetteville Street, Suite 800
Raleigh, NC 27601
(919) 856-4530
Counsel for Respondent

Shelly N. Gannon
Gibson Moore Appellate Services, LLC
206 East Cary Street
Richmond, VA 23219

For:
Michael W. Patrick, N.C. State Bar #7956
Counsel of Record
LAW OFFICE OF MICHAEL W. PATRICK
100 Timberhill Place, Suite 127
Post Office Box 16848
Chapel Hill, North Carolina 27516
(919) 960-5848 – telephone
(919) 869-1348 – facsimile
mpatrick@ncproductslaw.com
Counsel for Petitioner
Signed and subscribed before me on this 6th day of November, 2020.

